                                     Closeout for M98100035



        A graduate student' alleged retaliation by a professor2 and university officials3
after raising questions about possible plagiarism by the professor. The Office of
Inspector General (OIG) had previously examined the plagiarism allegation in case
M97060020 and found it to be without merit

        In the winter of 1994, the professor, who served as the graduate student's thesis
advisor, presented a possible thesis topic involving a mathematical conjecture. The
graduate student spent several years writing and revising a solution to this conjecture,
with infrequent assistance and commentary from the professor.

       In March 1997, the student completed a revised solution to the mathematical
conjecture, which the professor criticized for containing a significant error. After this
discussion, the graduate student presented the manuscript to a colleague4 of the professor,
and learned the professor and the colleague recently completed a similar solution to the
same mathematical c~njecture.~   The graduate student suspected plagiarism and contacted
university officials.

       The plagiarism allegation placed considerable strain on the relationship between
the professor and the graduate student. Accordingly, another professor6 offered to serve
as a replacement advisor. However this professor retracted the offer after learning the
graduate student discussed the alleged plagiarism with a faculty member7 at a different
university.

       In an effort to resolve the plagiarism allegation, university officials requested a
review of the manuscripts. After several professors8 dismissed the plagiarism allegation,
university officials requested a written apology from the graduate student. According to
the university, this written apology would help repair the strained relationships in the
small mathematics department and serve as a pedagogic lesson for the graduate student.

        However, the graduate student did not accept the dismissal of the plagiarism
allegation and expressed reluctance about signing a written apology. After extended
discussions about the exact nature of the written apology and the graduate student's
future at the university, in late May 1997, university officials set a deadline for a written
apology. This deadline passed without delivery of a written apology.

       In accordance with university policy of prohibiting financial assistance to a
graduate student without a thesis advisor, in early June 1997, university officials
1
    [Footnote redacted].
    [Footnote redacted].
    [Footnote redacted].
4
    [Footnote redacted].
    [Footnote redacted].
    [Footnote redacted].
'   [Footnote redacted].
*   [Footnote redacted].


                       Page 1 of 2                             Closeout for 98-35 (redacted).doc
                                  Closeout for M98100035

informed the graduate student that it had terminated his financial aid. In addition, the
graduate student would not be permitted to register in the fall of 1997 without a
replacement advisor. The graduate student did not find a replacement advisor and
subsequently withdrew from the university.

        After considering all relevant information, OIG concludes that university officials
completely and fairly assessed the plagiarism allegation and expended significant time
and resources on finding an appropriate resolution that would repair the professor's
professional reputation while allowing the graduate student to complete a thesis with the
professor or a replacement advisor. The professor and university officials did not
retaliate against the graduate student for raising a good faith allegation of plagiarism.
This case is closed.


Cc: Integrity, IG




                    Page 2 of 2                               Closeout for 98-35 (redacted).doc
